LAw OFFICES

GREGORY H. GUILLOT, P.C.
GREGORY H. GUILLOT
AD MITTED IN TEXAS,

D.C. AND

L OUI SIANA

June 4, 2021
By Electronic Filing

Scott S. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0002

Re:

No. 20-1448, Corbello v. Valli, et al.

Dear Mr. Harris:
I represent the petitioner in the above-captioned case. The petition for a writ of certiorari was
filed on April 12, 2021, and the respondents' brief in opposition was filed today, June 4, 2021.
Pursuant to this Court's Rule 15.5, petitioner expressly waives the 14-day waiting period for
distribution of the petition and brief in opposition to the Court, and asks that the case be distributed
on the next scheduled distribution date for paid cases- June 8, 2021 -for consideration at the June
24, 2021 conference. Petitioner will submit a reply brief as soon as possible, so the Court will have
full briefing well in advance of the conference.
Thank you for your consideration.
Respectfully submitted,.

Gregory Harris Guillot
Counsel for Petitioner

cc:

Counsel of Record for Respondents (by electronic mail)

100 CRESCENT CouRT • 7TH FLOOR • DALLAS, TExAs 75201
TELEPHONE: (972) 774-4560 • FACSIMILE: (972) 301-2110 • E-MAIL: gregory@guillot-law.com • INTERNET: http://www.ggmark.com

